ALTSHULER BERZON LLP

ATTORNEYS AT LAW
STEPHEN. GERZON FREOH, ALTSHULER
HAMILTON CANDEE: 177 POST STREET, SUITE 300 FOUNDING PARTNER EMERTTUS

BARBARA. CHISHOLM SAN FRANCISCO, CALIFORNIA 94108, pavenh Wieam AUN

JEFFREY 8. DEMAIN (415) 421-7151 ™ 7

EILEEN. GOLDSMITH FAX (415) 362-8064 ELIZABETH VISSERS,

CCORINNE JOHNSON. FELLOW
www.altshulerberzon.com

March 25, 2020
Via e-mail and U.S. Mail

Scott S. Harris, Clerk

United States Supreme Court
One First Street, N.E.
Washington, DC 20543

Re: Danielson y. Inslee, No. 19-1130

Dear Mr. Harris:

On behalf of Respondent Washington Federation of State Employees, ASFCME Council
28, AFL-CIO, I respectfully move for a 30-day extension of time, until May 15, 2020, for
Respondents to submit a response to the petition for certiorari in this matter. This request is
being made because I have deadlines to submit briefs in several other cases during the time
period at issue, and because of my office’s limited capacity while the City and County of San
Francisco’s shelter-in-place order remains in effect. Counsel for Respondent Jay Inslee,
Governor of the State of Washington, requests that the extension apply to all Respondents.
Counsel for Petitioners has confirmed that Petitioners do not oppose the requested extension.

By copy of this letter, I am serving counsel for all parties by e-mail and U.S. mail.
Sincerely,
gt fe /
P. Casey Pitts
Counsel for Respondent

Washington Federation of State Employees,
AFSCME Council 28

 
March 25, 2020
Danielson v. Inslee, No. 19-1130
Page 2 of 2

ec: Jonathan F. Mitchell
via e-mail and U.S. Mail
Alicia O. Young
via e-mail and U.S. Mail
